CERTIFICATE OF SERVICE
NO. 20-1587
State of Louisiana
Petitioner,
v.
Tazin Ardell Hill
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKALHOMA ET AL AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER, by mailing three (3) true
and correct copies of the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Elizabeth Baker Murrill
Office of the Attorney General
1885 N. Third Street
Baton Rouge, LA 70802
(225) 326-6766
murrille@ag.louisiana.gov
Counsel for State of Louisiana

Richard John Bourke
Louisiana Capital Assistance Center
636 Baronne Street
New Orleans, LA 70113
(504) 258-2915
rbourke@thejusticecenter.org
Counsel for Tazin Ardell Hill

Lucas DeDeus

June 14, 2021
SCP Tracking: Cleveland-Oklahoma Office of the Attorney General-Cover Cream

